         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Management Alert

The Department of Energy's
Management of Foreign Travel




DOE/IG-0872                          October 2012
                                  Department of Energy
                                     Washington, DC 20585
                                         October 16, 2012



MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman
                          Inspector General
SUBJECT:                  INFORMATION: Management Alert: "The Department of Energy's
                          Management of Foreign Travel"

INTRODUCTION

The Department of Energy and its workforce of 116,000 Federal and contractor personnel have
numerous international exchanges and interactions at different levels and for a variety of
important programmatic and other purposes. The Office of Inspector General is currently
reviewing the Department's management of international offices and foreign assignments. As
part of this review, we developed data on the scope, magnitude and cost of Department-
sponsored international travel.

Based on this information, we initiated a special inquiry to determine whether the Department, at
the corporate level, had made the maximum use of currently available data to ensure that its
foreign travel expenditures were properly managed and controlled. This and related issues have
taken on great importance as the Department and all Federal agencies seek ways to reduce
program and overhead costs to address looming Federal budget restrictions.

IMMEDIATE CONCERN

According to the Department's centralized travel database, the Foreign Travel Management
System (FTMS), Federal and contractor employees made approximately 109,000 individual
international trips at a cost of about $360 million from Fiscal Year (FY) 2007 through FY
2012— a 6-year period. Consistent with the Department's organizational structure and its
significant reliance on contractor assistance, the vast majority of these taxpayer-funded trips, in
fact about 85 percent, were taken by contractor employees. This equates to over 90,000
contractor employee foreign travel trips in the period with a cost to the government of just over
$300 million.

Despite the sizable expenditure of Federal funds, the Department had not made a concerted effort
to reduce contractor international travel costs. In particular, we found that the FTMS was not
being fully utilized to identify overall trends in foreign travel, potential wasteful practices, and
possible strategies to reduce the Department's international travel expenditures. Further, while
the Department implemented a mandatory 30 percent reduction in Federal employee travel,
management officials informed us that parallel action had not been taken to manage or control
foreign travel by contractors. Based directly on the information sourced from the FTMS, had the
Department applied the 30 percent reduction criteria to the international travel costs incurred by
its 100,000 contractor workforce, as much as $15 million could be saved each year.

We are bringing this matter to your attention in the form of a management alert because: (1)
contractor foreign travel offers a significant, near term opportunity to reduce the Department's
overall travel costs and, in so doing, help address pressing budget shortfalls; and, (2) the FTMS,
if properly maintained, can provide virtually real time, highly transparent information to aid in
achieving this goal.

As noted in our Special Report on Management Challenges at the Department of Energy
(DOE/IG-058, November 10, 2011), we know of no other time in recent memory when there was
such a broad consensus concerning the need to reduce Federal spending and address the Nation's
mounting debt. In that report, the Office of Inspector General developed a series of operational
efficiency and cost reduction ideas for Departmental consideration. The matter discussed in this
management alert builds on the ideas for achieving greater efficiency and cost reductions in
Department operations, including those of its contractors.

OBSERVATIONS AND CONCLUSIONS

On November 9, 2011, the President signed Executive Order 13589, Promoting Efficient
Spending, requiring each agency to develop and implement policies and controls to ensure
efficient spending on travel and conference-related activities. To further clarify the efficient
spending actions required of government agencies, the Office of Management and Budget
(OMB) issued Memorandum M-12-12, Promoting Efficient Spending to Support Agency
Operations, on May 11, 2012. The Memorandum specified that for FY 2013 each agency shall
spend at least 30 percent less on travel expenses than in FY 2010. Agencies must also maintain
this reduced level of spending each year through FY 2016.

Consistent with the OMB Memorandum, a number of initiatives designed to reduce Federal
employee travel, including foreign travel, were in place. Yet, we found that neither the
Department nor its Program Offices had made maximum use of the travel data in the FTMS for
managerial purposes or taken steps on a corporate basis to reduce the costs of contractor foreign
travel that parallel those imposed on the Federal staff.

                                      Contractor Employees

The Department's science, energy research, national security, and environmental management
missions are largely carried out through a system of national laboratories, technical facilities and
site remediation efforts that are managed and operated by contractors. Per the FY 2011 Agency
Financial Report, there were over 100,000 contractor employees and 16,000 Federal employees
working for the Department. As illustrated in the following table utilizing information derived
from FTMS, over the last 6 years, these employees have taken nearly 109,000 international trips
at a cost of over $360 million. About 85 percent of these trips, or just over 90,000 trips, were
taken by contractor employees. Further, from 2007 until 2011, the number of contractor
employee international trips increased by over 35 percent, with aggregate travel costs increasing
in each of the 5 years. Although the data for 2012 was incomplete, we project a small reduction
in trips between 2011 and 2012.
                                                 2
                                   Total Foreign Trips and Travel Costs
                                        FY 2007 through FY 20121
          Closed Trip Reports                                  Travel Costs                             Contractor
          Contractor     All           Federal          Other          Contractor                      Percentage of
    FY    Employees    Employees      Employees       Employees2       Employees          Total         Total Costs
2007         12,731       14,869       $6,220,904     $1,025,542      $37,436,348      $44,682,794          84%
2008         13,724       16,226       $8,652,609       $893,023      $44,868,028      $54,413,660          82%
2009         16,094       18,560       $7,838,732     $1,079,335      $52,081,136      $60,999,203          85%
2010         17,226       20,011       $8,304,987     $1,376,354      $59,228,476      $68,909,817          86%
2011         17,200       20,157       $8,297,953     $1,693,050      $59,430,495      $69,421,498          86%
2012         16,261       19,137       $7,159,079     $2,017,223      $53,389,215      $62,565,517          85%
                                                  3
Total        93,236      108,960     $46,474,264      $8,084,527     $306,433,698     $360,992,489          85%

Neither the Department nor its key Program Offices had included contractors in their most
significant travel cost reduction efforts. A National Nuclear Security Administration (NNSA)
official confirmed that contractor foreign travel was not considered in the reduction efforts. An
Office of Science official indicated that his office does not control or oversee, nor does it seek to
control or oversee, travel expenditures incurred by the management and operating contractors
running Science laboratories. A Program Official from the Office of Environmental
Management noted that the Department had traditionally taken the position that contractors were
responsible for determining whether trips, including international travel, were necessary.

Given the magnitude of contractor-incurred international travel costs, we concluded that the
Department could benefit by focusing greater corporate attention on reducing such costs. We
noted that the Department had interpreted the OMB requirement to reduce travel costs by 30
percent to apply only to Federal employee travel. As such, officials told us that the Department
excluded contractor employee costs from its planned travel reductions. Consequently, the
Department had not, for example, established goals in contractor performance plans for
reductions in foreign travel.

In discussing the preliminary results of our review, management informed us that the Chief
Financial Officer had recently collected data on various contractor costs. Management also
stated that the Department had selected contractor travel costs as the first area to receive an in-
depth review. Based on the results of that review, management planned to develop strategies for
reducing costs. As demonstrated in our analysis, we concluded that contractor foreign travel
costs are of such a magnitude to warrant inclusion in any Department strategy to reduce
contractor costs.




1
  2012 projected based on trips and costs reported as of June 30, 2012.
2
  Other employees include other Federal agency employees, invitational travelers, university employees,
subcontractors, and foreign nationals.
3
  Includes eight trip reports for Office of Inspector General travel associated with criminal investigations, including
cases relating to international cyber security and foreign corrupt practices.

                                                           3
                                     Foreign Travel Analysis

The Department had not used available tools to identify opportunities to reduce contractor
foreign travel costs. Specifically, our review disclosed that the FTMS contained invaluable cost
and related information on both Federal and contractor travel. And, that this information was
detailed, timely and could be arrayed in a number of standard report formats for managerial
purposes. Further, despite the complexity of the Department's contracting structure, the FTMS
made contractor employee travel costs highly transparent.

We found that the Department operates the FTMS to record, track, and secure approval for all
foreign travel including contractor travel. The FTMS is used, for example, to ensure that
travelers obtain the necessary authorizations to travel to foreign countries and to track travelers
in case of emergency situations. Although there are a number of standardized reports in FTMS
that could be used to analyze foreign travel costs, the Department did not use the system in
developing its agency-wide response to the Executive Order and the OMB Memorandum. To
illustrate how useful the FTMS can be, as noted previously, through our testing and analysis of
travel data in the system, we determined that the Department experienced an upward trend in the
number of foreign trips taken and travel costs incurred during four of the past five fiscal years.

Officials from the Department's Office of Management and the Chief Financial Officer told us
that data from the FTMS system was used for budget and certain other purposes, but that it was
not viewed with an eye toward managing the overall volume of foreign travel. Program Officials
from Fossil Energy, NNSA, and Energy Efficiency and Renewable Energy told us that they used
FTMS as a means of ensuring that all ministerial requirements had been met prior to beginning a
foreign trip. Specifically, the database, among other things, tracked compliance with
requirements to obtain country clearance, receive needed area training, and satisfy counter
intelligence needs. Other Program Officials acknowledged that they had not performed any
analyses of contractor foreign travel. As such, Federal managers missed an opportunity to
identify trends in international travel and areas for potential cost savings, most especially related
to contractor travel.

We also found that the FTMS provided a number of useful data points that could be used to
examine the purpose of the travel, destinations, frequent travelers, and the number of travelers
attending certain events. Evaluating attributes such as these could be useful in highlighting areas
for possible reductions in foreign travel costs by identifying opportunities to consolidate trips or
reduce the number of travelers making the same trips such as to conferences. To illustrate,
through our limited review of FTMS data, we found a number of examples in which groups of
contractor employees attended the same conference. In one query we found 32 contractor
employees from 5 laboratories that traveled to India for a conference at a cost of $141,174; and,
in another example, we identified 18 employees from 1 laboratory who traveled to a conference
in Japan at a cost of $56,463. In yet another example, 45 individuals from 6 laboratories
attended a conference in Poland. This included 27 participants from 1 particular national
laboratory. We were unable to determine the total travel cost for the 45 individuals to attend the
conference because a significant number had not completed their travel reports at the time of our
review. These trips reflect only a limited sample of conference-related international travel
during the 6-year period included in the scope of our review.

                                                 4
To be clear, we are not in a position to assert that these trips were unnecessary or that travel costs
or the numbers of Department-sponsored attendees were unreasonable. We do believe, however,
that, as part of the government-wide effort to reduce spending, Department managers need to
focus on not only whether international travel is justified on a mission basis and whether the
number and frequency of trips is appropriate, but of greatest importance, whether they are
affordable in light of budget realities. In this regard, FTMS data provides a veritable treasure
chest of useful information to serve as a basis for evaluating the volume, purpose and necessity
for foreign travel, and, in turn, making informed travel decisions.

                                              Data Reliability

In our view, the FTMS is a valuable tool for management. Yet, there were certain structural and
data reliability issues that need to be addressed. For example, we noted that the purpose of
almost 13,000 trips recorded in FTMS was characterized as '"other'" because there were a limited
number of predefined choices for identifying the purpose of the travel. In addition, in some
instances, travelers attending one of the conferences previously mentioned appeared to have used
different conference names, rendering at least some of the summary data of questionable
reliability. If the Department decides to make greater use of the FTMS going forward, attention
to these areas will help enhance its reliability.

                                          Contractor Governance

The Department's governance approach to its management and operating contractors focuses on
obtaining mission results as opposed to directing the contractors' operations. Yet, the
Department has previously established goals and provided incentives to contractors to improve
performance in a number of operational areas. For example, the Department required its
contractors to comply with recently issued Federal guidance related to reducing attendance at
and sponsorship of conferences. Applying this same rationale to contractor foreign travel, even
in the face of the interpretation of OMB guidance, could have a dramatic impact on
Departmental travel expenses.

                                  Federal Employee Travel Reductions

The Department has moved swiftly to identify and reduce travel by Federal employees. Its
efforts in this area have focused largely on achieving a 30 percent reduction of non-exempted4
Federal employee travel. Our inquiries found that responsibility for achieving travel reductions
was delegated to the Under Secretaries and then to the individual Program Offices. Accordingly,
the Department's Office of Management formally asked all Program Offices to submit their
travel reduction plans for consolidation into a Departmental submission to OMB.

During our review, we found that some Program Offices implemented the travel reductions
through budget plans and oversight of budget execution at the sub-program levels. For example,
the Office of Science provided an initial travel budget allotment based on achieving

4
  The OMB Memorandum exempted such activities as investigation, safety and health, and oversight from the
reduction requirements.

                                                       5
the 30 percent travel reduction from a budget execution standpoint. However, each sub-program
office within the Office of Science made its own determinations on the best mix of foreign and
domestic Federal employee travel to support its missions. Similarly, a NNSA official told us that
NNSA did not review foreign travel from a corporate level as this assignment was delegated to
the sub-program level. We were also aware of other efforts to reduce the number of trips in the
Department, such as promoting the use of its video conferencing instead of traveling to conduct
meetings.

RECOMMENDATIONS

We concluded that there are opportunities to achieve reductions in the cost of international
travel. By making the maximum use of existing FTMS system and by applying a mandatory
reduction to the contractor's foreign travel through the consolidation of trips or reductions in the
number of travelers making the same trip, the Department could reduce foreign travel by as
much as $15 million per year. To achieve this, we recommend that the Director, Office of
Management:

   1. Develop a corporate strategy for reducing contractor foreign travel expenditures;

   2. As part of this process, consider: (1) establishing overarching foreign travel goals,
      incentives and cost control measures that assist the Department in meeting tight budget
      restrictions now and in the future; and, (2) extending current Federal workforce travel
      reduction requirements to contractor employees;

   3. Render the Department's sizable investment in international travel as transparent as
      possible by ensuring that Department and contractor officials make full use of available
      data tools, such as the FTMS, for managerial and cost control purposes;

   4. Modify, as necessary, the trip and cost data fields in FTMS to address concerns raised in
      this report and, in so doing, enhance its overall reliability and usefulness; and,

   5. Ensure that data entries to FTMS are complete, so that the system is fully populated.

Furthermore, although this report focuses on contractor international travel, the Department
should consider whether contractor international travel initiatives should be applied to domestic
travel as well.

Finally, we will be shortly issuing a separate report on our review of the Department's
management of international offices and foreign assignments.

MANAGEMENT REACTION

Management concurred with our recommendations. It noted that foreign travel is necessary to
carry out the Department's nuclear security mission and to respond to emergencies, such as the
nuclear disaster in Fukushima, Japan. Management stated that in addition to the analysis of
contractor foreign travel costs discussed previously, its analysis will identify management best

                                                  6
practices. And, the Department will instruct each of its management and operating contractors to
assess their foreign travel needs and submit an action plan for reducing unnecessary foreign
travel and achieving costs savings for taxpayers.

AUDITOR COMMENTS

The Office of Inspector General recognizes the Department's activities, including those related to
National security. The actions outlined by management should, if effectively executed, address
our recommendations.

Management's comments are attached in their entirety.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Administrator, National Nuclear Security Administration
    Acting Under Secretary for Science
    Acting Chief Financial Officer
    Director, Office of Management
    Chief of Staff




                                                7
                      Attachment
MANAGEMENT COMMENTS




         8
    Attachment (continued)




9
     Attachment (continued)




10
                                                                    IG Report No. DOE/IG-0872

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
